       SIGAR                                               Special Inspector General for
                                                            Afghanistan Reconstruction




                                                                       SIGAR Inspection 13-4

           KUNDUZ AFGHAN NATIONAL POLICE
           PROVINCIAL HEADQUARTERS: AFTER
           CONSTRUCTION DELAYS AND COST
           INCREASES, CONCERNS REMAIN ABOUT
           THE FACILITY’S USABILITY AND
           SUSTAINABILITY




                                                                                 JANUARY
                                                                                2013

SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters
SIGAR
                                                January 2013
                                                KUNDUZ AFGHAN NATIONAL POLICE PROVINCIAL HEADQUARTERS: AFTER
                                                CONSTRUCTION DELAYS AND COST INCREASES, CONCERNS REMAIN ABOUT
                                                THE FACILITY’S USABILITY AND SUSTAINABILITY

                                                SIGAR INSPECTION 13-4
Special Inspector General for
Afghanistan Reconstruction                      WHAT SIGAR FOUND
                                                Construction quality at the Kunduz ANP Provincial Headquarters
WHAT SIGAR REVIEWED                             generally meets contract specifications, although USACE-TAN’s failure to
In August 2010, the U.S. Army                   address the potential for collapsible soils as part of the award of the
Corps of Engineers - Afghanistan                contract caused a 10-month delay and a $5 million cost increase. A
Engineer District - North (USACE-               collection of 37 structures, the project was approximately 50 percent
TAN) awarded a $12.4 million                    complete when SIGAR visited the site on November 15, 2012. Most of
contract task order to ECCI-C                   the buildings were structurally complete. No significant construction
METAG Joint Venture to design                   deficiencies were noted.
and build facilities at the Afghan              Nevertheless, SIGAR’s inspection identified usability and sustainability
National Police (ANP) Provincial                issues with the facility. Specifically, a failure of the facility’s only source
Headquarters in Kunduz                          of power—a single diesel generator with no back-up or connection to the
province. Subsequent                            local electrical grid—could lead to significant sewage overflows that
modifications to the contract                   threaten the health and safety of the facility and its occupants. Also,
increased its total value to                    there are no plans for an operation and maintenance contract or to train
$17.7 million. On November 15,                  Afghans to keep complex systems such as sewage treatment and
2012, the Special Inspector                     electrical power in good working order. Therefore, in SIGAR’s view, U.S.
General for Afghanistan                         investment in this facility may be at risk.
Reconstruction (SIGAR)                          WHAT SIGAR RECOMMENDS
conducted a site inspection at
                                                SIGAR is making recommendations to the Commanding General, USACE,
the facility to determine whether
                                                to install electrical back-up at the sewage treatment plant lift station.
construction was being                          SIGAR also recommends that the Commanding General, USACE, in
completed in accordance with                    coordination with the Commanding General, NATO Training Mission-
contract requirements and                       Afghanistan/Combined Security Transition Command-Afghanistan,
applicable construction                         review the decision to not connect the site to the local electrical grid
standards.                                      and, if this decision was warranted, install back-up site electrical power
In preparation for its site                     to help ensure a continuous supply of electricity; and to consider
inspection, SIGAR reviewed                      awarding an operation and maintenance contract to ensure the facility’s
contract documents, technical                   long-term sustainability. USACE and NTM-A/CSTC-A concurred with the
specifications, design                          recommendations and noted actions they are taking to address them.
documents, geotechnical
reports, and quality control and
quality assurance reports.
SIGAR conducted its work in                                                                                  Sewage Treatment
Kunduz province and in Kabul,                                                                                Plant (black) at
Afghanistan, from September to                                                                               Elevated Portion
December 2012, in accordance                                                                                 of Provincial Police
with Quality Standards for                                                                                   Headquarters
Inspection and Evaluation                                                                                    Compound
published by the Council of the                                                                              (SIGAR Photo
Inspectors General on Integrity                                                                              11/15/2012)
and Efficiency.



      For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
January 24, 2013


Lieutenant General Daniel P. Bolger
Commanding General, North Atlantic Treaty Organization Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
   U.S. Army Corps of Engineers


This report discusses the results of the inspection of the U.S. Army Corps of Engineers’ (USACE)
Kunduz Afghan National Police (ANP) Provincial Headquarters construction project in Kunduz
province, Afghanistan, by the Office of the Special Inspector General for Afghanistan
Reconstruction (SIGAR). This report includes recommendations to the Commanding General,
USACE, in coordination with the Commanding General, North Atlantic Treaty Organization
Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan, to address
these issues.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended;
the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                           TABLE OF CONTENTS

Background ........................................................................................................................................................... 1
Construction Quality is Generally Meeting Contract Specifications, although Soil Instability Caused Delays and
    Additional Costs ............................................................................................................................................ 2
Problems with Sewage Treatment, Lack of Back-up Electricity, and Absence of an Operation and Maintenance
     Contract Could Harm Long-Term Usability and Sustainability ....................................................................... 5
Conclusion............................................................................................................................................................. 8
Recommendations ................................................................................................................................................ 8
Agency Comments ................................................................................................................................................. 8
Appendix I - Scope and Methodology.................................................................................................................. 10
Appendix II - Kunduz ANP Provincial Police Headquarters Site Plan .................................................................. 11
Appendix III - Summary of Kunduz Police Headquarters Contract ...................................................................... 12
Appendix IV - Comments from the U.S. Army Corps of Engineers ....................................................................... 14
Appendix V - Comments from the NATO Training Mission-Afghanistan/Combined Security Transition
              Command-Afghanistan ................................................................................................................. 16
Appendix VI - Acknowledgements ....................................................................................................................... 19


TABLES

Table I - Summary of Facilities in Task Order 0003............................................................................................ 12


FIGURES

Figure 1 - Aerial Photo, Kunduz ANP Provincial Police Headquarters.................................................................... 2
Figure 2 - Over-Excavation of Sewage Filter Beds ................................................................................................. 3
Figure 3 - Sewer Manhole Construction ................................................................................................................ 3
Figure 4 - Dining Facility under Construction......................................................................................................... 3
Figure 5 - Open-Bay Barracks under Construction ................................................................................................ 3
Figure 6 - Roof Rebar Placement for Concrete Pour for Open Bay Barracks ......................................................... 4
Figure 7 - Roof Slab Pour Underway for Administration Building ........................................................................... 4
Figure 8 - Distant View of the Sewage Treatment Plant ........................................................................................ 5
Figure 9 - Close View of the Sewage Treatment Plant ........................................................................................... 6

Figure 10 - Sewage Lift Station ............................................................................................................................. 6
Figure 11 - Evidence of Local Electrical Grid Adjacent to Site ............................................................................... 7
Figure I - Site Plan, Kunduz ANP Provincial Police Headquarters ....................................................................... 11




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                                                                        Page i
ABBREVIATIONS & ACRONYMS

        ANP                           Afghan National Police
        CSTC-A                        Combined Security Transition Command-Afghanistan
        NATO                          North Atlantic Treaty Organization
        NTM-A                         NATO Training Mission-Afghanistan
        USACE                         U.S. Army Corps of Engineers
        USACE-TAN                     U.S. Army Corps of Engineers, Afghanistan Engineer District-North




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                  Page ii
An objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security
by training and equipping the Afghanistan National Security Forces, which include the Afghan National Police
(ANP) and the Afghan National Army. The U.S. Army Corps of Engineers (USACE) is constructing a Provincial
Police Headquarters for the ANP in the city of Kunduz, which is located in the Kunduz Province of Northern
Afghanistan. 1 The $17.7 million project is funded by the North Atlantic Treaty Organization (NATO) Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A) using funds from
the U.S.-appropriated Afghanistan Security Forces Fund.
For this inspection, we assessed the quality and maintenance of construction and site improvements for
facilities located at the headquarters. Specifically, we determined whether construction was being completed
in accordance with contract requirements and applicable construction standards, and whether the facilities
could be used as intended and maintained.
We conducted this inspection at Kabul, Afghanistan; the USACE Kunduz Resident Office; and the Kunduz
Provincial Police Headquarters construction site from September to December 2012, in accordance with the
Quality Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency. The engineering assessment was conducted by Professional Engineers in accordance
with the National Society of Professional Engineers’ Code of Ethics for Engineers. Appendix I contains more
detail on our scope and methodology and Appendix II contains a map of the headquarters site and the
locations inspected.
BACKGROUND

USACE Afghanistan Engineer District-North (USACE-TAN) 2 awarded task order 0003 to W5J9JE-10-D-0007 on
August 8, 2010, for $12.4 million to ECCI-C METAG, JV. 3 Through a series of modifications, the contract was
increased to $17.7 million. The task order was for facility design, site improvements, and construction to
support the ANP Uniformed Civilian Police4 with facilities for a provincial response command, quick response
force, and a traffic directorate in Kunduz, Afghanistan. The task order provides for the management, material,
labor, and equipment to design, construct and/or refurbish all utilities, roads, buildings, force protection
measures, site security, and de-mining activities, among other things. The facility will provide capacity for a
provincial headquarters of 37 structures and a total of 625 persons. See Appendix III for more details.
The construction project consists of barracks, classroom buildings, latrines, office buildings, dining facility,
guard towers, entry-control points, and utility systems. Utility systems include a single diesel generator power
plant, water wells/tanks, sewage treatment plant, and underground piping networks (see figure 1). The site is
located in an urban area of Kunduz with existing infrastructure and buildings surrounding it. The site also has
existing police buildings and personnel already working onsite.5 The contractor has a large staff and housing
camp onsite with several construction and quality control managers present to oversee the project. During our




1 Kunduz Province is located north of the Afghan capital, Kabul. The Province borders Tajikistan. The city of Kunduz, the

province capital, is 153 miles (246 kilometers) north, northeast of Kabul and about 60 miles (90 kilometers) from the
Tajikistan border. The province covers an area of 7827 km2. Three quarters of the area is made up of flat land while about
12 percent is mountainous or semi mountainous terrain.
2In 2009, the Afghanistan Engineer District was divided into two districts—North and South. The North District is referred to
as USACE-TAN.
3 ECCI-C METAG, JV is a joint venture between ECC International Constructors, LLC, headquartered in Burlingame,
California, and METAG Construction Trade Company, Inc., headquartered in Ankara, Turkey.
4 The ANP are organized into four broad categories, including the Afghan Uniformed Civilian Police; Afghan Border Police;
Afghan National Civil Order Police; and Afghan Anti-Crime Police.
5 The site included existing ANP facilities which were in use during our site visit. These facilities were not included in the
contract. The contractor had adjusted its construction activities to accommodate the ANP personnel.



SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                                  Page 1
visit, approximately 400 sub-contractor construction workers were observed. The USACE Quality Assurance
Representative was also onsite at the time of our visit.


Figure 1 - Aerial Photo, Kunduz ANP Provincial Police Headquarters


                                                                                Paved Road on Western Perimeter
                                                                                (power lines along this road)


                                                                                             Sewage
                                                                                             Treatment
                                                                                             Plant




                                                                                                         Water Tank
                                                                                                         Foundations



                                                                                            Existing School
                                             1 MW
                                             generator




Source: USACE Photo. Aerial View 9/23/2012 (Courtesy USACE-TAN)



CONSTRUCTION QUALITY IS GENERALLY MEETING CONTRACT SPECIFICATIONS,
ALTHOUGH SOIL INSTABILITY CAUSED DELAYS AND ADDITIONAL COSTS

According to contractor representatives, the ANP Provincial Headquarters project was approximately
50 percent complete when we visited the site on November 15, 2012. 6 Most of the buildings were structurally
complete, although construction was ongoing and no buildings, to date, were occupied by the end user. No
significant structural construction deficiencies were noted and site grading and drainage also appeared
adequate at this point in the construction project. Site occupational safety practices were also adequate
based on our observations. Personnel were observed to be wearing proper protective equipment. Barrier tape
was applied to excavated areas (see figure 2). Some small excavations were observed as in figure 2. We also
observed that most underground utility piping, conduit, and manholes had been installed. However, some
building sewer connections had not been made to the nearest manhole (see figure 3), and no electrical cabling


6 Key work remaining to be performed included roofing, water tanks, underground utilities, interior finish, windows and
doors, roads, parking, and the sewage treatment plant.



SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                             Page 2
had yet been delivered to the job site. Nevertheless, in our view, these are not significant issues since the
project is only 50 percent complete. Construction was continuing on, among other things, the dining facility
and barracks (see figures 4 and 5). The quality of the concrete and steel construction appeared to meet
contract specifications (see figures 6 and7).



Figure 2 - Over-Excavation of Sewage Filter                Figure 3 - Sewer Manhole Construction
Beds




                             Personnel wearing
                             proper protective
                             equipment. Barrier
                             tape was applied to
                             excavated areas


Source: SIGAR Photo 11/15/2012 (taken from the top of      Source: SIGAR Photo 11/15/2012
the sewage treatment plant)




Figure 4 - Dining Facility under                           Figure 5 - Open-Bay Barracks under
Construction                                               Construction




Source: SIGAR Photo 11/15/2012                             Source: SIGAR Photo 11/15/2012




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                  Page 3
Figure 6 - Roof Rebar Placement for                                  Figure 7 - Roof Slab Pour Underway for
Concrete Pour for Open Bay Barracks                                  Administration Building




Source: SIGAR Photo 11/15/2012                                       Source: SIGAR Photo 11/15/2012


Originally scheduled to be completed in September 2012, the project was over 1 year behind schedule at the
time of our site visit. Soon after award of the contract, the contractor began to have problems with collapsible
soil conditions and sink holes on the project site. Construction work was placed on hold until a $5 million
contract modification was put in place7 to remediate the collapsible soil risk by requiring the contractor to over-
excavate the building pads by three meters and then bring in certified backfill material as replacement soil. 8
This process delayed construction progress for approximately 10 months. It is unclear why USACE-TAN did not
address the potential for collapsible soils as part of the award of the contract since the soil condition is
endemic to the area. We noted a similar problem in an April 2010 audit report and October 2012 inspection
report where a USACE-TAN contractor at an Afghan National Army garrison in the same general area of Kunduz
Province had failed to identify serious collapsible soil problems in its geotechnical report. 9
Furthermore, construction of the Kunduz ANP Provincial Headquarters has been further delayed by weather.
USACE-TAN now estimates that the project will be completed and the facility ready for turnover to NTM-A/CSTC-
A by September 2013.




7 The contractor was given a notice to proceed on September 9, 2010. On September 29, the contractor advised USACE of
the potential for collapsible soil at the site. Omran Geotechnical Co. submitted a geotechnical report to the contractor on
November 15. The contractor submitted a letter to USACE on January 1, 2011, outlining soil issues at the site, along with
three proposed solutions. USACE approved a contract modification on June 19, 2011, adding $5 million to the contract and
increasing the performance time by 281 days.
8   At the time of our site visit, most of this work to remediate the collapsible soil risk had been completed.
9 See SIGAR Audit 10-09, ANA Garrison at Kunduz Does Not Meet All Quality and Oversight Requirements; Serious Soil
Issues Need to be Addressed, April 30, 2010, and SIGAR Inspection 13-1, Kunduz ANA Garrison: Army Corps of Engineers
Released DynCorp of All Contractual Obligations despite Poor Performance and Structural Failures, October 25, 2012.



SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                            Page 4
PROBLEMS WITH SEWAGE TREATMENT, LACK OF BACK-UP ELECTRICITY, AND
ABSENCE OF AN OPERATION AND MAINTENANCE CONTRACT COULD HARM
LONG-TERM USABILITY AND SUSTAINABILITY

Our inspection identified a number of problems that could negatively affect the long-term usability and
sustainability of the facility. For example, we have concerns about the facility’s ability to treat sewage
generated by the facility’s occupants as well as the availability of adequate back-up power. In addition, the
facility currently lacks an operation and maintenance contract that will help ensure its long-term sustainability.
To address site waste water, a sewage treatment plant10 (see figures 8 and 9) has been installed near the
main entry control point on the northwest corner of the project site—one of highest elevation points for the site.
Based on discussions with site personnel and USACE-TAN, installation of the sewage treatment plant at this
higher elevation is based on the need to discharge the treated sewage effluent into a municipal storm and
sewage drain system located outside the site along the northwest corner.

The sewage treatment plant is designed to
drain untreated sewage by gravity to a single       Figure 8 - Distant View of the Sewage Treatment
pumping station, called a “lift station,”11         Plant
located within a few feet of the sewage
treatment plant itself (see figure 10). The lift
station will pump the untreated sewage into
the sewage treatment plant for processing.
However, we have concerns about the
adequacy and sustainability of the lift station.
The site is designed to be occupied by 625
persons, which will generate approximately
90,000 liters of untreated sewage per day. 12
The sewage treatment plant and lift station
require full-time electrical power. In the event
of a power failure, the large amount of
untreated sewage generated per day will
quickly fill the 200-liter lift station and
overflow through the manhole, possibly
destroying the electrical motor mounted on
                                                    Source: SIGAR Photo 11/15/2012
top of the lift station. 13. Sewage would then
flow downhill along the ground toward the
main entry control point, resulting in health and safety hazards. A review of the design criteria could identify
the best option for providing back-up power for the lift station, such as an auxiliary electrical generator capable
of operating independently from the site power plant.




10   The sewage treatment plant was constructed off-site, shipped to the location, and installed.
11 The lift station, which was being constructed during our site visit, is a small barrel-shaped device placed in the ground
and is approximately 200 liters in volume. Sewage is fed into it by gravity. The electrical motor, seen with a protective cover
in figure 10, will pump the sewage up the adjacent pipe (seen in figures 9 and 10) and into the sewage treatment plant.
12 For sewage treatment, the contract factors a daily water use standard per person in Afghanistan of 190 liters per day,
and requires design for 80 percent, or 155 liters per person per day, to be processed by the sewage treatment plant.
13   As can be seen in Figure 10, the site was excavated for the lift station, which will be below ground level upon completion.



SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                                 Page 5
Figure 9 - Close View of the Sewage                       Figure 10 - Sewage Lift Station
Treatment Plant

                                                                                                         Lift Station
                                                                                                         Discharge Pipe
                Lift Station
                Discharge Pipe


                                                                                                      Electrical
                                                                                                      Motor




Source: SIGAR Photo 11/15/2012                            Source: SIGAR Photo 11/15/2012



The possibility of power failure is exacerbated by the lack of back-up power for the single diesel generator that
we observed being installed on the southwest corner of the project site. This single generator is designed to
provide 100 percent of the site’s electrical power needs. The generator will consume over 180 liters per hour
of diesel fuel at 75 percent load. As a result, based on our analysis using current fuel costs, operation of this
generator will require approximately $243,000 per month or over $2.9 million per year.
A potentially cheaper option that would not require fuel to be delivered on a regular basis to the generator
would be to connect the site to the local electrical grid. Distribution power lines for the area’s electrical grid
exist along the western perimeter of the site and we observed a local home being connected to that grid (see
figures 1 and 11). In discussion with USACE-TAN representatives, they informed us that a decision had been
made at the beginning of the project to not connect to the local grid, because it would not support the
requirements of the site facilities, and the variability in voltage and frequency of electricity from the local grid
could damage the site electrical equipment. However, fuel requirements for the diesel generator will be
extremely costly, raising questions about USACE-TAN’s decision to forgo connecting the site to the local
electrical grid, or determining other economical means to provide back-up electrical power.
Based on the $17.7 million project cost and discussions with USACE-TAN and construction officials, it is not
clear why a facility of this size is being built at this location without adequate plans for a back-up electrical
power supply. Addressing this issue will require further costs to be expended, above the $5 million already
incurred by the failure to address the collapsible soil issue at the time of the contract award. Providing another
back-up diesel generator is an option, but will further exacerbate the fuel costs, and the site will still be
dependent on regular fuel deliveries. However, without a viable electrical back-up, there will be no power
available to the site in the event that the primary generator is shut down for maintenance or repair, or in
unintended circumstances.




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                       Page 6
        Figure 11 - Evidence of Local Electrical Grid Adjacent to Site




                                                                                             Local home
                                                                                             being connected
                                                                                             to the electrical
                                                                                             grid.




        Source: SIGAR Photo 11/15/2012



Technically complex systems such as the sewage treatment plant and the power plant require operation and
maintenance skills. Normally, an operation and maintenance contract would be put in place subsequent to the
completion of the project, which is currently envisioned to occur in September 2013. The contract would
typically include training for local personnel to properly operate and maintain facility systems. However, while
USACE-TAN contract provisions provide limited training upon turnover for technical equipment, there are
currently no plans to award an operation and maintenance contract. The officials told us the reason for this is
that the construction would be covered under warranty by the contractor for 1 year and, after that period had
passed, most coalition forces will have left Afghanistan. However, the lack of an operation and maintenance
contract or plans to provide comprehensive training to local Afghans to operate and maintain U.S.-funded
construction raises questions about the long-term sustainability of the facility. Failure of the site’s electrical
supply or sewage treatment systems would result in increased costs to repair or replace any damage that
occurs and negatively affect use of the facility, jeopardizing the $17.7 million investment, and could result in
significant health and safety concerns for the facility and its occupants.




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                   Page 7
CONCLUSION

Although construction at the Kunduz ANP Provincial headquarters is generally meeting contract specifications,
USACE-TAN’s failure to address the potential for collapsible soils as part of the award of the contract resulted
in significant construction delays. The cost of the contract had to be increased by $5 million to address the
collapsible soil issues at the construction site. In addition, the facility’s design has problems that raise
concerns about the facility’s usability and sustainability. In particular, a failure of the facility’s only source of
electrical power—a single diesel generator with no back-up or alternate connection to the local electrical grid or
other back-up electrical power supply—could lead to site power outages and significant sewage overflows that
threaten the health and safety of the facility and its occupants.
Furthermore, while USACE-TAN has planned to provide limited site maintenance training to local Afghans at the
end of the project, it has not adequately planned for the long-term sustainability of the facility through an
operation and maintenance contract that would keep site facilities, including technically complex systems such
as sewage treatment and electrical power, in good working order. Failure of these systems will result in
increased costs to repair or replace any damage that occurs. In our view, therefore, the $17.7 million U.S.
investment in this facility may be at risk.


RECOMMENDATIONS

To ensure that the ANP will be able to adequately use and sustain the Kunduz Provincial Police Headquarters
for its intended purpose, we recommend that the Commanding General, USACE, direct USACE-TAN to:
    1. Provide electrical back-up at the lift station, such as an auxiliary electrical generator, to provide back-
       up power to continue pumping untreated sewage into the sewage treatment plant and help mitigate
       the potential for sewage overflow when the main generator is out of service for repair or maintenance
       or from unintended power outages.
In addition, to aid long-term sustainability, we recommend that the Commanding General, USACE, in
coordination with the Commanding General, NTM-A/CSTC-A:
    2. Review the decision made at the start of the project to not connect the site to the local electrical grid
       and, as part of the review, conduct a cost-benefit and technical analysis. The review should factor the
       high costs to purchase and deliver fuel to the site for the electrical generator, the capability of the
       local grid to provide adequate power for the site facilities and equipment, and the need for a back-up
       site electrical system. Based on the results of this review, if connection to the local power grid is not
       feasible, install a back-up site generator or otherwise provide an appropriate back-up electrical power
       system to prevent loss of electricity across the site when the primary generator is not working.
    3. Award an operation and maintenance contract at project completion to ensure that the facility is
       appropriately maintained once occupied.


AGENCY COMMENTS

We provided a draft of this report to USACE and NTM-A/CSTC-A for comment. USACE concurred with SIGAR’s
three recommendations, stating that it is prepared to address these issues, pending NTM-A/CSTC-A direction
and funding. For SIGAR’s first recommendation, USACE is prepared to install a back-up at the lift station. For
SIGAR’s second recommendation, USACE is prepared to conduct a cost-benefit and technical analysis
associated with connecting the site to the local electrical grid. And for SIGAR’s third recommendation, USACE
is prepared to issue a task order against the existing operations and maintenance contract. USACE’s
comments are reproduced in appendix IV.




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                      Page 8
NTM-A/CSTC-A’s responded to recommendations 2 and 3. Concerning recommendation 2, NTM-A/CSTC-A
noted that a Power Summit was held in October 2012 to review current coalition and ANSF power
requirements as well as the current status and capacity of the Afghan national grid. While the summit
participants found that major investment is still required to connect major military bases to the national grid,
they also highlighted the need to conduct a feasibility and cost-benefit analysis of connecting ANSF facilities to
the national grid as a primary power source. NTM-A/CSTC-A will conduct this analysis to develop a feasible
timeline for transition of ANSF facilities to the Afghan grid. Concerning recommendation 3, NTM-A/CSTC-A
noted that, as the Ministries of Defense and Interior build up their ability to sustain new facilities, facilities and
infrastructure that are deemed critical can be placed on an operations and maintenance contract exclusively
for their maintenance to ensure their continued viability into 2014 and later. NTM-A Engineer Advisors will also
encourage the Ministry of Interior Facilities Department to award an operations and maintenance contract for
the sustainment needs of the Kunduz Provincial Police Headquarters. NTM-A/CSTC-A comments are
reproduced in appendix V.




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                       Page 9
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of an inspection of the Provincial Police Headquarters for Kunduz Province.
The Provincial Police Headquarters is being constructed in an urban portion of the City of Kunduz. This
inspection report is one of a series of nine inspections of construction projects contracted by the U.S. Army
Corps of Engineers (USACE) in the Northern Provinces of Afghanistan.
To determine whether the construction was completed in accordance with contract requirements and
applicable construction standards and whether the facilities will be used as intended and maintained, we:
     • reviewed contract documents, design submittals, and geotechnical reports, to understand project
       requirements and contract administration;
     • interviewed cognizant U.S. and Afghan government officials responsible for the construction project;
       and
     • conducted a physical inspection and photographed the project site to observe the current status and
       the quality of construction.

We conducted work at Kabul, Afghanistan; the Kunduz Provincial Reconstruction Team, USACE Kunduz
Resident Office; and the Kunduz Provincial Police Headquarters construction site from September to
December 2012, in accordance with the Quality Standards for Inspection and Evaluation, published by the
Council of the Inspectors General on Integrity and Efficiency. These standards were established to guide
inspection work performed by all the Offices of Inspector General. The engineering assessment was conducted
by Professional Engineers in accordance with the National Society of Professional Engineers’ Code of Ethics for
Engineers. We did not rely on computer-processed data in conducting this inspection. We considered the
impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. This inspection was conducted by the Office of the Special Inspector General for
Afghanistan Reconstruction under the authority of Public Law 110-181, as amended, the Inspector General Act
of 1978, and the Inspector General Reform Act of 2008.




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                 Page 10
APPENDIX II - KUNDUZ ANP PROVINCIAL POLICE HEADQUARTERS SITE PLAN

Figure I - Site Plan, Kunduz ANP Provincial Police Headquarters




Source: Courtesy of USACE-TAN




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters          Page 11
APPENDIX III - SUMMARY OF KUNDUZ POLICE HEADQUARTERS CONTRACT

The Kunduz ANP Provincial Police Headquarters is being constructed under a multiple award task order
contract (W5J9JE-10-D-0007), awarded on March 8, 2010. The contract is a firm fixed-price, indefinite delivery
indefinite quantity, multiple award task order contract that provides for the management, material, labor, and
equipment to design, construct and/or refurbish utilities, roads, buildings, force protection measures, site
security, and de-mining activities, among other things, throughout North Afghanistan. The multiple award task
order contract’s total capacity is $240 million over its life. Construction of the Kunduz ANP Provincial Police
Headquarters facility is being performed under Task Order #3 (W5J9JE-10-D-0007-0003) of the multiple award
task order contract, awarded to ECCI-C METAG, JV 14 on August 8, 2010, for $12.43 million. Through a series
of modifications, the contract value was increased to $17.7 million.
Table I provides a summary of the standard buildings being constructed.

 Table I - Summary of Facilities in Task Order 0003
                          Name/Designation                               Number of Units

 Administration building (#200)                                                  1

 Barracks-private/semi-private (#202)                                            1

 Women’s barracks-open bay (#206, 401)                                           2

 Dining facility (#207)                                                          1

 Toilet/shower/ablution/laundry (#210a, 210b, 302a, and 302b)                    4

 Secure storage (#223)                                                           1

 Gate house (#215)                                                               1

 Training building (two used as barracks) (#204, 205, and 209)                   3

 Guard shack (#216a-c)                                                           3

 Guard tower (#217a-g)                                                           7

 Vehicle maintenance building (#211)                                             1

 Petroleum, oil, and lubricants (#213)                                           1

 Warehouse (#212a-b)                                                             2

 Trash collection point (#214a-b)                                                2

 Well house (#226)                                                               1

 Fuel storage & vehicle refuel (#224)                                            1

 Barracks open bay (#203, 301, and 302)                                    2 w/1-Option

 Administration building (#300, 400)                                             2



14ECCI-C METAG, JV is a joint venture between ECC International Constructors, LLC, headquartered in Burlingame,
California, and METAG Construction Trade Company, Inc., headquartered in Ankara, Turkey.




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                                          Page 12
                        Name/Designation                                Number of Units

 Criminal Investigation Division administration building a                      1

 Total Buildings                                                         37 w/1-Option
 Source: SIGAR summary of task order
 Note: a This building was subsequently added to the project and no building number was
 assigned in the modification (1C).




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters                                  Page 13
APPENDIX IV - COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters       Page 14
SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters   Page 15
APPENDIX V - COMMENTS FROM THE NATO TRAINING MISSION-
AFGHANISTAN/COMBINED SECURITY TRANSITION COMMAND-AFGHANISTAN




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters   Page 16
SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters   Page 17
SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters   Page 18
APPENDIX VI - ACKNOWLEDGEMENTS

Crawford “Les” Thompson, Senior Inspections Manager
Brian M. Flynn, Senior Audit Manager
Milton Naumann, Auditor-in-Charge
Warren Anthony, Senior Auditor
William “Lee” Dillingham, Professional Engineer




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters   Page 19
                                 This inspection report was
                               conducted under project code
                                        SIGAR-I-006.




SIGAR Inspection 13-4/Kunduz ANP Provincial Headquarters      Page 20
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
